                                                                 Issue Date
                                                                          September 26, 2007
                                                                 Audit Report Number
                                                                          2007-CH-1015




TO:         Ray E. Willis, Director of Community Planning and Development, 5AD


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: Cook County, Illinois, Lacked Adequate Controls over Its HOME Investment
           Partnerships Program

                                   HIGHLIGHTS

 What We Audited and Why

             We audited Cook County’s (County) HOME Investment Partnerships Program
             (Program). The audit was part of the activities in our fiscal year 2007 annual
             audit plan. We selected the County based upon on our analysis of risk factors
             relating to Program grantees in Region V’s jurisdiction. Our audit objectives
             were to determine whether the County effectively administered its Program and
             followed the U.S. Department of Housing and Urban Development’s (HUD)
             requirements.

 What We Found

             The County did not effectively administer its Program and violated HUD’s
             Program requirements. It did not comply with HUD’s regulations and/or its
             manual of administrative procedures for residential rehabilitation (manual) and/or
             policies and procedures for lead-based paint in housing programs (policies and
             procedures) in providing housing rehabilitation assistance for owner-occupied
             single-family rehabilitation projects (projects) and/or American Dream
             Downpayment Initiative (Initiative) activities’ (activities) assistance with
             downpayments and closing costs. It inappropriately provided more than $100,000
             in Program funds to assist two projects that did not qualify as affordable housing,
           used $15,000 in Program funds for excessive project delivery costs for two
           projects, and was unable to support its use of nearly $828,000 in Program and
           Initiative funds for projects and activities, respectively.

What We Recommend

           We recommend that the Director of HUD’s Chicago Office of Community
           Planning and Development require the County to reimburse its Program from
           nonfederal funds for the improper use of funds, provide support or reimburse its
           Program from nonfederal funds for the unsupported payments, and implement
           adequate procedures and controls to address the findings cited in this audit report.
           These procedures and controls should help ensure that nearly $154,000 in
           Program funds is used over the next year for projects that qualify as affordable
           housing.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.


Auditee’s Response

           We provided our discussion draft audit report and supporting schedules to the
           director of the County’s Department of Planning and Development, the president of
           its board of commissioners, and HUD’s staff during the audit. We held an exit
           conference with the County’s director on August 21, 2007.

           We asked the County’s director to provide comments on our discussion draft audit
           report by September 10, 2007. The director provided written comments, dated
           September 10, 2007. The director generally did not agree with finding 1, but
           generally agreed with finding 2. The complete text of the written comments, except
           for 91 pages of documentation that were not necessary to understand the director’s
           comments, along with our evaluation of that response, can be found in appendix B
           of this report. We provided the Director of HUD’s Chicago Office of Community
           Planning and Development with a complete copy of the County’s written comments
           plus the 91 pages of documentation.




                                             2
                              TABLE OF CONTENTS

Background and Objectives                                                  4

Results of Audit
        Finding 1: Controls over the County’s Projects Were Inadequate     5

        Finding 2: Controls over the County’s Activities Were Inadequate   11

Scope and Methodology                                                      13

Internal Controls                                                          15

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use     17
   B.   Auditee Comments and OIG’s Evaluation                              18
   C.   Federal Requirements and the County’s Policies                     28
   D.   Schedule of Program Funds Used for Project Delivery Costs          31




                                              3
                     BACKGROUND AND OBJECTIVES

The Program. Authorized under Title II of the Cranston-Gonzales National Affordable Housing
Act, as amended, the HOME Investment Partnerships Program (Program) is funded for the purpose
of increasing the supply of affordable standard rental housing; improving substandard housing for
existing homeowners; assisting new homebuyers through acquisition, construction, and
rehabilitation of housing; and providing tenant-based rental assistance. The American Dream
Downpayment Assistance Act established a separate funding formula for the American Dream
Downpayment Initiative (Initiative) under the Program to provide downpayment assistance, closing
costs, and rehabilitation assistance to eligible first-time homebuyers.

The County. Organized under the laws of the State of Illinois, Cook County (County) is governed
by a 17-member board of commissioners (board), including a board president, elected to four-year
terms. The board designated the County’s Department of Planning and Development (Department)
as the lead agency to administer the County’s Program. The overall mission of the Department is to
work with municipalities, nonprofit organizations, businesses, developers, and other organizations
to revitalize communities and promote economic opportunity in the County. The County’s Program
records are located at 69 West Washington Street, Chicago, Illinois.

The following table shows the amount of Program and Initiative funds the U.S. Department of
Housing and Urban Development (HUD) awarded the County for Program years 2003 through
2006.

                           Program         Program          Initiative
                             year            funds            funds
                             2003           $6,555,837         $354,822
                             2004            6,565,213          398,640
                             2005            6,297,078          227,313
                             2006            5,820,276          111,012
                            Totals         $25,238,404       $1,091,787

The County awarded Program funds to four subrecipients to provide housing rehabilitation
assistance for owner-occupied single-family rehabilitation projects (projects) during our audit
period. Our audit only included projects from two of the subrecipients: the West Suburban
Neighborhood Preservation Agency (Agency), a governmental entity, and the North West
Housing Partnership (Partnership), a nonprofit organization. The County provided Initiative
funds directly to homebuyers to assist with downpayments and closing costs for Initiative
activities (activities).

Our audit objectives were to determine whether the County effectively administered its Program
and followed HUD’s requirements. This is the first of two audit reports on the County’s
Program.




                                                4
                             RESULTS OF AUDIT

Finding 1: Controls over the County’s Projects Were Inadequate
The County did not comply with HUD’s regulations and its manual of administrative procedures
for residential rehabilitation (manual) and policies and procedures for lead-based paint in
housing programs (policies and procedures) in providing housing rehabilitation assistance for
projects. It provided assistance for ineligible projects and excessive project delivery costs and
lacked documentation to support that projects and payments for project delivery costs were
eligible because it lacked adequate procedures and controls to ensure that HUD’s regulations and
its manual and policies and procedures were appropriately followed. As a result, it
inappropriately provided more than $100,000 in Program funds to assist two projects that did not
qualify as affordable housing, used $15,000 in Program funds for excessive project delivery
costs for two projects, and was unable to support its use of nearly $670,000 in Program funds.
Based on our statistical sample, we estimate that over the next year, the County will use nearly
$154,000 in Program funds for projects that do not qualify as affordable housing.


 The County Provided More
 Than $100,000 in Program
 Funds for Improper Projects

              From the 56 projects the County started and completed from January 1, 2005,
              through March 15, 2007, we statistically selected 17 projects for review. The
              County provided $100,969 in Program funds to assist two projects that did not
              qualify as affordable housing. The following table shows the project number, the
              appraisal date, the prerehabilitation appraisal for the after-rehabilitation value of
              the house, the affordability limit, the percentage by which the after-rehabilitation
              appraised value of the house exceeded the affordability limit, and the housing
              assistance amount.

                 Project                     Appraised    Affordability   Percentage    Assistance
                 number    Appraisal date      value          limit       over limit     amount
                  2637     August 23, 2006     $365,000       $309,962       17.8          $65,919
                  2908      July 6, 2006        307,000         304,000       1.0            35,050
                                               Total                                      $100,969

              In addition, the prerehabilitation appraisal on the after-rehabilitation value of the
              house for project number 2908 was only $4,000 more than the prerehabilitation
              appraised value of the house.




                                                5
The County Lacked
Documentation to Support Its
Use of More Than $550,000 in
Program Funds

            The County lacked documentation for 9 of the 17 projects statistically selected for
            review to support that it used $550,581 in Program funds for eligible projects.
            The following table shows the nine projects for which the County did not have
            final inspection reports or certifications supporting that the projects met HUD’s
            property standards requirements, sufficient income documentation to demonstrate
            that households were income eligible, and/or a prerehabilitation appraisal for the
            after-rehabilitation value of a house to show that the project qualified as
            affordable housing.

              Project   Final inspections   Sufficient income   Pre-rehabilitation   Assistance
              number    or certifications    documentation          appraisal         amount
               2484             X                                      X              $117,077
               2492             X                                                        34,219
               2629             X                                                        34,788
               2630                                X                                     69,447
               2637            X                   X                                     65,919
               2642            X                                                         21,144
               2714            X                   X                                    100,994
               2720            X                                                         62,669
               2910            X                                                         44,324
              Totals           8                   3                    1             $550,581


            Further, files for 13 of the 17 projects were missing and/or had incomplete
            documents as follows:

                11 were missing initial inspection reports specifying code violations,
                Nine were missing subrecipients’ work write-ups or itemized cost estimates,
                Nine were missing contractor documentation required before disbursements,
                Eight were missing equal employment opportunity and Section 3
                 documentation,
                Eight were missing signed participant documentation, and
                Two were missing environmental review documentation.

The County Used Program
Funds for Excessive Project
Delivery Costs

            The County paid its subrecipients, the Agency and the Partnership, $140,000 in
            Program funds from June 2005 through November 2006 for project delivery costs
            for the 17 projects statistically selected for review.



                                              6
          The County paid an administrative fee of $5,000 to the Agency for each housing
          unit within a project and to the Partnership for each project. In addition, the
          County disbursed a lead-based paint clearance fee of $2,500 to the Agency for
          each housing unit within a project involving lead rehabilitation work and to the
          Partnership for every project after lead-based paint clearance was obtained.
          However, the County could not provide a basis for the fees and could only
          provide documentation to support $6,395 in lead-based paint testing for 11 of the
          17 projects. Further, the County’s manual and policies and procedures contained
          conflicting requirements regarding the maximum amount allowed for project
          delivery costs. The manual limited project delivery costs to $4,500 per unit
          without a waiver; while the policies and procedures limited the project delivery
          costs to $7,500 per project. The County could not provide documentation as to
          showing which requirement governed its use of Program funds for project
          delivery costs. Neither of the subrecipients submitted a waiver to exceed $4,500
          for any of the projects.

          Using the upper maximum limits between the manual and the policies and
          procedures ($7,500 for single-unit projects and $4,500 per unit for multi-unit
          projects), the County used $15,000 in Program funds for excessive project
          delivery costs for two projects. Further, the County could not support its use of
          an additional $118,605 in Program funds for project delivery costs for the 17
          projects. The $118,605 included $42,500 that exceeded the lower maximum
          limits between the manual and the policies and procedures ($7,500 for multi-unit
          projects and $4,500 for single-unit projects). The table in appendix D of this
          report shows the following for the 17 projects: the project number, the number of
          units within each project, the Program funds the County disbursed to the
          subrecipients for project delivery costs, the upper maximum limits for project
          delivery costs, the amount of Program funds used for excessive project delivery
          costs, the project delivery costs for which the County could provide supporting
          documentation, and the remaining unsupported Program funds.

          Although the Agency only provided HUD-funded (Community Development
          Block Grant and Program) housing rehabilitation assistance for projects, its
          audited financial statements for the year ending September 30, 2005, showed that
          it had an increase in net assets totaling $134,330. The Partnership’s audited
          financial statements for the year ending September 30, 2006, showed that it had
          an increase in net assets totaling $117,898. The Partnership received funding
          from sources other than HUD.

The County Lacked Adequate
Procedures and Controls

          The weaknesses regarding the County’s providing assistance for inappropriate
          projects and excessive project delivery costs and lacking documentation to
          support that projects and payments for project delivery costs were appropriate



                                           7
             occurred because the County lacked adequate procedures and controls to ensure
             that it appropriately followed HUD’s regulations and its manual and policies and
             procedures. The County did not ensure that it fully implemented HUD’s
             regulations and its manual and policies and procedures.

             The Agency’s executive director said he believed that 95 percent of the median
             area purchase price for single-family housing in the jurisdiction of project number
             2637 was greater than the single-family mortgage limit. However, the County did
             not request from HUD an increase in the single-family mortgage limit. The
             Partnership’s director said she mistakenly used the prerehabilitation appraised
             value of the house for project number 2908. The director also said she believed
             the after-rehabilitation appraised value of the house was too high.

             The construction manager of the County’s Department said the County conducted
             final inspections of all the projects. However, he could not explain why the
             County did not have final inspection reports or certifications supporting that the
             eight projects met HUD’s property standards requirements. The Agency’s
             executive director said he did not believe that a prerehabilitation appraisal for the
             after-rehabilitation value of the house for project number 2484 was necessary
             since the household did not have a mortgage on the house.

             The construction manager said that before 1997, the County completed an
             analysis on the appropriateness of the fees for project delivery costs. Further, he
             said the fees were probably too low since the amount had increased by only $500
             since the analysis was done more than 10 years ago. However, the construction
             manager could not provide the analysis or any supporting documentation.

             The County did not adequately monitor its subrecipients, including not closing out
             the subrecipient grant agreements, to ensure that assistance was only provided for
             appropriate projects and adequate supporting documentation was maintained. The
             construction manager said the problems with monitoring were due to a lack of
             staffing. However, as of June 2007, the County had more than $1.5 million in
             unused administrative Program funds from program years 2004 through 2006 that
             it could have used for additional staffing.

Conclusion

             The County did not properly use its Program funds when it failed to comply with
             HUD’s requirements and its manual and policies and procedures. As previously
             mentioned, the County provided $100,969 in Program funds to assist two projects
             that did not qualify as affordable housing, used $15,000 in Program funds for
             excessive project delivery costs for two projects, and was unable to support its use of
             more than $669,186 ($550,581 for the nine projects without documentation
             supporting eligibility plus $118,605 in project delivery costs for the 17 projects) in
             Program funds.



                                               8
          If the County implements adequate procedures and controls over Program funds to
          ensure compliance with HUD’s regulations and its manual, we estimate that it will
          not use $153,805 in Program funds over the next year for projects that do not qualify
          as affordable housing. Our methodology for this estimate is explained in the Scope
          and Methodology section of this audit report.

Recommendations

          We recommend that the Director of HUD’s Chicago Office of Community
          Planning and Development require the County to

          1A.     Reimburse its Program $100,969 from nonfederal funds for the Program
                  funds used to assist the two projects cited in this finding that did not
                  qualify as affordable housing.

          1B.     Provide supporting documentation or reimburse its Program from
                  nonfederal funds, as appropriate, for the $550,581 in Program funds used
                  for the nine projects cited in this finding for which the County did not
                  have final inspection reports or certifications supporting that projects met
                  HUD’s property standards requirements, sufficient income documentation
                  to demonstrate that homeowners were income eligible, and/or a pre-
                  rehabilitation appraisal on the after-rehabilitation value of the house to
                  show that the project qualified as affordable housing.

          1C.     Reimburse its Program from nonfederal funds, as appropriate, for the
                  $15,000 in Program funds used for excessive project delivery costs for the
                  two projects cited in this finding.

          1D.     Provide documentation showing that the lower maximum limit is not
                  applicable for project delivery costs and for the $42,500 in Program funds
                  used for project delivery costs without support. If the County cannot
                  provide appropriate documentation, it should reimburse its Program from
                  nonfederal funds for the applicable portion of the $42,500.

          1E.     Provide supporting documentation or reimburse its Program from
                  nonfederal funds, as appropriate, for the $76,105 ($118,605 used for
                  project delivery costs without support less $42,500 that exceeded the
                  lower maximum limit) in unsupported Program funds.

          1F.     Implement adequate procedures and controls to ensure that housing
                  rehabilitation assistance is only provided to appropriate projects to prevent
                  $153,805 in Program funds from being used over the next 12 months
                  contrary to HUD’s regulations and its policies.




                                            9
1G.   Provide documentation to support that the subrecipients’ increases in net
      assets cited in this report were not from Program funds.

1H.   Revise its manual and/or policies and procedures so they do not contain
      conflicting requirements regarding the maximum amount for project
      delivery costs.




                               10
Finding 2: Controls over the County’s Activities Were Inadequate
The County lacked documentation to support that it followed HUD’s regulations when it
provided Initiative funds to assist homebuyers with downpayments and closing costs for
activities. The weaknesses occurred because the County lacked adequate procedures and
controls to ensure that it used Initiative funds for eligible activities and maintained adequate
documentation. As a result, HUD and the County lack assurance that more than $158,000 in
Initiative funds was used efficiently and effectively and in accordance with HUD’s regulations.



 The County Lacked
 Documentation to Support Its
 Use of More Than $158,000 in
 Initiative Funds for Activities

               From the 64 activities that the County started and completed from January 1,
               2005, through March 15, 2007, we statistically selected 18 activities for review.
               The County lacked documentation for the 18 activities to support that it followed
               HUD’s regulations when it provided $158,321 in Initiative funds to assist
               homebuyers with downpayments and closing costs. It did not conduct its own
               inspections to determine whether houses met all applicable state and local housing
               quality standards and code requirements.

               The County’s activity files contained homebuyers’ consumer housing inspection
               reports (reports) for 15 of the activities. However, the reports did not focus on
               whether the houses met all applicable state and local housing quality standards
               and code requirements. The reports for 13 of the activities stated that the houses
               contained multiple deficiencies. For example, the report for activity number 2741
               contained the following items: a gas leak from the water heater, garage paint
               deterioration, electrical outlets do not have three wire receptacles, the main panel
               box had four spliced wires and needed to be upgraded to 100 amps, and the
               ground-fault circuit interrupter outlet in the kitchen trips immediately. In
               addition, the County’s activity files for the 13 activities did not contain
               documentation showing that the items in the reports were either corrected or in
               the process of being corrected.

 The County’s Procedures and
 Controls Had Weaknesses

               The weaknesses regarding the County not conducting inspections occurred
               because the County lacked adequate procedures and controls to ensure that it
               appropriately followed HUD’s regulations. The County did not ensure that it
               fully implemented HUD’s regulations.



                                                11
             The construction manager and former assistant director of the County’s
             Department said they were not aware that the County could not rely on
             independent inspections performed by a party not under contract with the County.
             The construction manager also said the County relied on the mortgage companies
             to ensure that the houses met all applicable state and local housing quality
             standards and code requirements.

Conclusion

             HUD and the County lack assurance that the County used $158,321 in Initiative
             funds to assist homebuyers with downpayments and closing costs for houses that
             met all applicable state and local housing quality standards and code
             requirements.

Recommendations

             We recommend that the Director of HUD’s Chicago Office of Community
             Planning and Development require the County to

             2A.    Provide supporting documentation or reimburse its Initiative funds
                    $158,321 from nonfederal funds for the 18 activities for which the County
                    lacked documentation to demonstrate that activities met applicable state
                    and local housing quality standards and code requirements.

             2B.    Implement adequate procedures and controls to ensure that Initiative funds
                    are only used for eligible activities. These procedures and controls should
                    include but not be limited to ensuring that houses meet applicable state
                    and local housing quality standards and code requirements.




                                             12
                          SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

            •   Applicable laws; HUD’s regulations at 24 CFR [Code of Federal Regulations] Parts
                5, 35, 84, 85, 92, and 982; HUD’s Office of Community Planning and Development
                Notice 96-9; Office of Management and Budget Circulars A-87 and A-122; and
                “Building HOME: a Program Primer.”

            •   The County’s accounting records; annual audited financial statements for 2005
                and 2006; data from HUD’s integrated disbursement information system;
                Program, project, and activity files; computerized databases; by-laws; policies;
                procedures; organizational chart; consolidated community development and
                annual plans; and consolidated annual performance and evaluation reports.

            •   The Agency’s and the Partnership’s accounting records, annual audited financial
                statements for 2005 or 2006, Program and project files; policies; and procedures.

            •   HUD’s files for the County.

We also interviewed the County’s employees, subrecipients’ employees, Program participants,
and HUD staff.

Finding 1

We statistically selected 17 of the County’s projects using the U.S. Army Audit Agency’s
Statistical Sampling System software from the 56 projects with settlement statements completed
after January 1, 2005, and zero balances as of March 15, 2007. The 17 units were selected to
determine whether the County effectively administered its Program and provided assistance for
eligible projects. Our sampling criteria used a 90 percent confidence level, 10 percent error rate,
and precision of plus or minus 9.9 percent.

Our sampling results determined that the County inappropriately provided housing rehabilitation
assistance to two (11.7 percent) of the 17 projects. The County provided more than $2.9 million
in Program funds for the 56 projects from January 2005 through March 2007 for an average of
$52,583 per project. The County starts and completes approximately 25 (56 projects divided by
27 months times 12 months) projects per year.

We estimated that the County will annually use at least $153,805 (25 projects times $52,583
times 11.7 percent) in Program funds for projects that do not qualify as affordable housing. This
estimate is presented solely to demonstrate the annual amount of Program funds that could be put
to better use on eligible projects if the County implements our recommendation. While these
benefits would recur indefinitely, we were conservative in our approach and only included the
initial year in our estimate.



                                                13
Finding 2

We statistically selected 18 of the County’s activities using the U.S. Army Audit Agency’s
Statistical Sampling System software from the County’s 64 activities with settlement statements
completed after January 1, 2005, and zero balances as of March 15, 2007. The 18 units were
selected to determine whether the County effectively administered its Program and provided
assistance for eligible activities. Our sampling criteria used a 90 percent confidence level, 10
percent error rate, and precision of plus or minus 9.9 percent.

We performed our on-site audit work from February through August 2007 at the County’s office
located at 69 West Washington Street, Chicago, Illinois. The audit covered the period January 2005
through December 2006 and was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                               14
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               15
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •   The County lacked adequate procedures and controls to ensure compliance
               with HUD’s regulations and/or its manual and policies and procedures
               regarding the use of Program funds for eligible projects and project delivery
               costs and Initiative funds for eligible activities (see findings 1 and 2).




                                            16
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                              Funds to be put
              number            Ineligible 1/        Unsupported 2/   to better use 3/
                 1A                 $100,969
                 1B                                       $550,581
                 1C                   15,000
                 1D                                          42,500
                 1E                                          76,105
                 1F                                                          $153,805
                 2A                                        158,321
                Totals              $115,969              $827,507           $153,805


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reduction in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In these instances, if the County implements our
     recommendation it will cease to use Program funds for improper projects. Once the
     County successfully improves its procedures and controls, this will be a recurring benefit.
     Our estimate reflects only the initial year of this benefit.




                                                17
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 4


Comment 5




Comment 5




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 6




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 6




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 7




Comment 6




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 8




Comment 6




                         25
Ref to OIG Evaluation   Auditee Comments




                         26
                        OIG’s Evaluation of Auditee Comments

Comment 1   We did not independently estimate that the after-rehabilitation value of the house
            for project number 2908 was $307,000. The prerehabiliation appraisal, obtained
            by the Partnership and dated July 6, 2006, stated the after-rehabilitation value of
            the house for project number 2908 was $307,000. The County did not provide
            any documentation to support that the prerehabiliation appraisal was invalid.
            Therefore, the project did not qualify as affordable housing.

Comment 2   The County did not provide inspection reports to show that the eight projects met
            HUD’s property standard requirements or income documentation for the three
            projects to demonstrate that the households were income eligible.

Comment 3   The County used Program funds for excessive project delivery costs for project
            numbers 2637 and 2714.

Comment 4   The County did not provide documentation that it ever updated its manual.

Comment 5   The County did not provide additional supporting documentation for the project
            delivery costs it paid to the subrecipients for the 17 projects.

Comment 6   The County’s updated Program and Initiative manuals and new web designed
            system should improve its procedures and controls over its projects and activities,
            if fully implemented.

Comment 7   The County did not provide documentation to support that the Partnership’s
            increase in net assets was not from Program funds.

Comment 8   The County did not provide inspection reports or other documentation to show
            that the 18 projects either met applicable state and local housing quality standards
            and code requirements or the County is working with the homebuyers to ensure
            that the projects meet applicable state and local housing quality standards and
            code requirements.




                                             27
Appendix C

 FEDERAL REQUIREMENTS AND THE COUNTY’S POLICIES

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 84.21(b)(2) require recipients to
maintain records that adequately identify the source and application of funds provided for
financially assisted activities. Section 84.21(b)(6) states that recipients must have written
procedures for determining the reasonableness, allocability, and allowability of costs in
accordance with the provisions of the applicable federal cost principles. Section 84.21(b)(7)
states that accounting records must be supported by such source documentation.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 85.20(b)(2) require grantees to
maintain records that adequately identify the source and application of funds provided for
financially assisted activities. Section 85.20(b)(6) states that accounting records must be
supported by such source documentation as cancelled checks, paid bills, payrolls, time and
attendance records, and contract and subgrant award documents.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.203 state that a participating
jurisdiction must determine households’ annual income by examining source documentation
evidencing households’ annual income.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.206(d) state that a participating
jurisdiction may use Program funds for reasonable and necessary soft costs associated with the
financing and/or development of rehabilitation. The costs include but are not limited to
professional services to prepare specifications or work write-ups, credit reports, building permits,
private appraisal fees, fees for title evidence, and staff and overhead costs directly related to
carrying out a project.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.251(a)(1) state that housing
rehabilitated with Program funds must meet all applicable local codes, rehabilitation standards,
and ordinances at the time of project completion.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.254(a)(2)(iii) state that if a
participating jurisdiction intends to use Program funds for projects, the participating jurisdiction
may use the single-family mortgage limits under section 203(b) of the National Housing Act or it
may determine 95 percent of the median area purchase price for single-family housing in the
jurisdiction.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.254(b) state that for
rehabilitation not involving acquisition, a project qualifies as affordable housing only if the
estimated value of the property after rehabilitation does not exceed 95 percent of the median
purchase price for the area as described in 24 CFR [Code of Federal Regulations]



                                                28
92.254(a)(2)(iii) and the household qualifies as a low-income household at the time Program
funds are committed to the project.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.505(a) state that the
requirements of Office of Management and Budget Circular A-87 and 24 CFR [Code of Federal
Regulations] 85.20 apply to participating jurisdictions and any governmental subrecipient
receiving Program funds. Section 92.505(b) states that the requirements of Office of
Management and Budget Circular A-122 and 24 CFR [Code of Federal Regulations] 84.21 apply
to nonprofit organizations, which are not governmental subrecipients, receiving Program funds.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.508(a) state that a participating
jurisdiction must establish and maintain sufficient records to enable HUD to determine whether
the participating jurisdiction has met the requirements of 24 CFR [Code of Federal Regulations]
Part 92. The participating jurisdiction must maintain records demonstrating the following:

      Each project meets the property standards of 24 CFR [Code of Federal Regulations]
       92.251 and the lead-based paint requirements of 24 CFR [Code of Federal Regulations]
       92.355.
      Each household is income eligible in accordance with 24 CFR [Code of Federal
       Regulations] 92.203.
      Each project’s estimated value after rehabilitation does not exceed 95 percent of the
       median purchase price for the area in accordance with 24 CFR [Code of Federal
       Regulations] 92.254(a)(2).

Attachment A, section C(1), of Office of Management and Budget Circular A-87, revised May
10, 2004, requires all costs to be necessary, reasonable, and adequately documented. Section
C(3)(d) requires a cost allocation plan when indirect costs are charged to a federal award.

Attachment A, section A(1), of Office of Management and Budget Circular A-122, revised May
10, 2004, states that the composition of total costs of an award is the sum of the allowable direct
and allocable indirect costs. Section A(2) requires all costs to be reasonable, allocable, and
adequately documented.

Paragraph 10 of the County’s subrecipient grant agreements with the Agency and the Partnership
state that the Agency and the Partnership agree to be bound by and comply with the County’s
manual and policies and procedures.

Chapter III, paragraph B, of the County’s manual, revised June 16, 1997, states that subrecipients
must retain records illustrating that the subrecipients completed a due diligence effort to verify
the credibility of the income information by which the subrecipients certify.

Chapter IX, paragraph B, of the County’s manual states that subrecipients’ project files must
include the following:

      Initial inspection reports specifying code violations and deficiencies,
      Work write-up and an itemized cost estimate,



                                                29
      Required equal employment opportunity and Section 3 documentation,
      Proceed order to the contractor,
      Signed owner’s participation agreement,
      Sworn owner’s statement,
      Itemized bids from at least three contractors,
      Documentation of environmental review record requirements, and
      Final inspection reports certifying that all work has been satisfactorily completed.

Chapter X, paragraph A, of the County’s manual states that subrecipients are allowed to expend
up to 25 percent of each project fund allocation for eligible project delivery (administrative)
costs. Project delivery costs should not exceed $4,500 per unit. Subrecipients with project
delivery costs exceeding $4,500 per unit, must seek a waiver from the County, explaining the
circumstances causing the project delivery costs to exceed $4,500 per unit. Subrecipients must
document all project delivery costs and keep time sheets for all personnel whose salary and
fringe benefits are paid with Program funds.

Page 14 of the County’s policies and procedures, dated April 2002, states that the County will
provide a maximum of $7,500 for administrative costs for each house or two, three, or four flat
rehabilitated with Program funds. The County will disburse $5,000 when the contract for work
is signed and submitted to the County and $2,500 when lead-related work is completed and a
lead-based paint draw request is submitted to the County.

Finding 2
HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.251(a)(2) state that housing
acquired with Program funds must meet all applicable state and local housing quality standards
and code requirements. If there are no such housing quality standards or code requirements, the
housing must meet HUD’s housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.508(a) state that a participating
jurisdiction must establish and maintain sufficient records to enable HUD to determine whether
the participating jurisdiction has met the requirements of 24 CFR [Code of Federal Regulations]
Part 92. The participating jurisdiction must maintain records demonstrating that each project
meets the property standards of 24 CFR [Code of Federal Regulations] 92.251.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.612(b) state that housing
assisted with Initiative funds must meet the property standards contained in 24 CFR [Code of
Federal Regulations] 92.251.




                                                30
Appendix D

  SCHEDULE OF PROGRAM FUNDS USED FOR PROJECT
                DELIVERY COSTS
                                        Upper       Excessive    Project    Unsupported
    Project   Number      Program      maximum      Program      delivery    Program
    number    of units   funds used      limit       funds        costs        funds
     2484        1           $7,500        $7,500                                 $7,500
     2492        1             5,000        7,500                                  5,000
     2626        1             7,500        7,500                    $275          7,225
     2629        1             5,000        7,500                                  5,000
     2630        1             7,500        7,500                     665          6,835
     2631        1             7,500        7,500                     275          7,225
     2635        1             7,500        7,500                     640          6,860
     2637        2           15,000         9,000       $6,000        300          8,700
     2642        1             5,000        7,500                                  5,000
     2652        1             7,500        7,500                     275          7,225
     2714        3           22,500        13,500        9,000      1,300         12,200
     2720        1             7,500        7,500                   1,450          6,050
     2724        1             7,500        7,500                     275          7,225
     2726        1             7,500        7,500                     275          7,225
     2906        1             7,500        7,500                     665          6,835
     2908        1             7,500        7,500                                  7,500
     2910        1             5,000        7,500                                  5,000
    Totals                 $140,000                    $15,000     $6,395       $118,605




                                             31
